OIG Investigative Reports Press Release, Pittsburgh PA, 07/30/2014 - Former Midwestern Intermediate IU4 Official Pleads Guilty
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
WESTERN DISTRICT of PENNSYLVANIA
NEWS
Former Midwestern Intermediate IU4 Official Pleads Guilty
FOR IMMEDIATE RELEASE
July 30, 2014
PITTSBURGH - A resident of Grove City, Pennsylvania, pleaded guilty in federal court to a charge of theft concerning a program receiving federal funds, United States Attorney David J. Hickton announced today.
Cecelia H. Yauger, age 56, pleaded guilty to one count before Chief United States District Judge Joy Flowers Conti.
In connection with the guilty plea, the court was advised that from in and around January 2012, to in and around December 2012, Yauger, being an agent of the Midwestern Intermediate Unit IV (“IU4”), did knowingly steal property worth at least $5,000, which was owned by and under the custody and control of IU4.
Judge Conti scheduled sentencing for Nov. 14, 2014 at 3 p.m. The law provides for a total sentence of not more than 10 years in prison, a fine of $250,000, or both. Under the Federal Sentencing Guidelines, the actual sentence imposed is based upon the seriousness of the offense and the prior criminal history, if any, of the defendant.
Assistant United States Attorney Robert S. Cessar is prosecuting this case on behalf of the government.
The United States Postal Inspection Service, and the United States Department of Education, Office of Inspector General conducted the investigation that led to the prosecution of Cecelia H. Yauger.
Top
Printable view
Last Modified: 08/13/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov